        ALLEGATIONS TO THE DEFENSE HOTLINE
CONCERNING MANAGEMENT OF OBSOLETE REPARABLE ITEMS


Report No. D-2000-185                September 7, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DIIP                       Defense Inactive Item Program
NAVICP                     Naval Inventory Control Point
NSN                        National Stock Number
                       Office of the Inspector General, DoD
Report No. D-2000-185                                               September 7, 2000
  (Project No. D1999LD-0028)
  (Formerly Project No. 9LD-8012)

                   Allegations to the Defense Hotline
          Concerning Management of Obsolete Reparable Items

                                    Executive Summary

Introduction. We performed this audit in response to a Defense Hotline allegation
concerning management of obsolete reparable items by the Naval Inventory Control
Point (NAVICP) Philadelphia. The allegation stated that NAVICP Philadelphia weapon
system files contained an estimated 20,000 obsolete reparable national stock numbers
(NSNs). The allegation further stated that approximately $150 million of costs would
be avoided each year if those NSNs were removed from the weapon system files.

An NSN is considered obsolete if there are no current or future requirements
anticipated by any registered user of the NSN. Obsolete NSNs that are not deleted
from the DoD supply system needlessly consume cataloging and weapon system files,
personnel resources, and warehouse space.

Objective. Our overall objective was to evaluate the processes that the Military
Departments and the Defense Logistics Agency used to identify and delete items in
weapon system files that had obsolete NSNs. This report, the first in a series,
addresses the Defense Hotline allegation concerning obsolete reparable NSNs managed
by NAVICP Philadelphia. We also included a review of the management control
program as it applied to the audit objective. The next report will address obsolete
NSNs managed by the Defense Logistics Agency.

Results. The allegation was substantiated, but the cost avoidance was not. The
weapon system files managed by NAVICP Philadelphia contained obsolete reparable
NSNs, but the estimated annual cost of $150 million to maintain those NSNs was
significantly overstated. We identified 1,723 obsolete reparable NSNs (532 of the
1,723 NSNs had inventory valued at approximately $7.3 million) and 180 obsolete
weapon system applications associated with 89 obsolete aircraft. However, we did not
perform a detailed review of the 180 obsolete weapon system applications to identify all
associated NSNs. Therefore, we believe the number of obsolete NSNs in the files is
significantly greater. As a result, we calculate DoD could avoid a minimum of
$6.8 million of costs during the 6-year Future Years Defense Program, FYs 2001
through 2006, by eliminating unnecessary cataloging and weapon system files and by
reducing inventory. The full extent of monetary benefits will be quantifiable after
management identifies and takes action to delete all obsolete NSNs, obsolete
applications, and obsolete aircraft, as well as disposing of obsolete inventory. For
details of the audit results, see the Finding section of this report. See Appendix A for a
discussion of the management control program.

Summary of Recommendations. We recommend that the Commander, NAVICP,
ensure that NAVICP Philadelphia establish controls to promptly identify obsolete
NSNs, obsolete applications, and obsolete aircraft; delete the appropriate weapon
system files; and dispose of all obsolete inventory.

Management Comments. The Deputy Assistant Secretary of the Navy (Planning,
Programming and Resources) concurred with the finding and recommendations, stating
that guidance will be updated to ensure that obsolete aircraft are identified and removed
from weapon system files and that obsolete applications identified by the audit will be
purged from the weapon system files. The Deputy Assistant Secretary further stated
that the management actions would be completed by August 31, 2000. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

Audit Response. Navy comments were responsive to the recommendations.
However, the Navy did not comment on the potential monetary benefits from
eliminating unnecessary cataloging and weapon system files and from reducing
inventory. Therefore, we request that the Navy provide additional comments on the
final report by November 7, 2000.




                                            ii
Table of Contents

Executive Summary                       i


Introduction
     Background                         1
     Objective                          1

Finding
     Obsolete National Stock Numbers    3

Appendixes
     A. Audit Process
         Scope                         10
         Methodology                   11
         Management Control Program    11
         Prior Coverage                12
     B. Report Distribution            13

Management Comments
     Department of the Navy            15
Background

            This audit was performed in response to allegations to the Defense Hotline
            concerning management of obsolete reparable items by the Naval Inventory
            Control Point (NAVICP) Philadelphia. The allegation stated that NAVICP
            weapon system files contained an estimated 20,000 obsolete reparable national
            stock numbers (NSNs). The allegation further stated that approximately
            $150 million of costs would be avoided each year if those NSNs were removed
            from the weapon system files.

            The NAVICP was established in 1995 with the merging of the Aviation Supply
            Office, Philadelphia, Pennsylvania, and the Ships Parts Control Center,
            Mechanicsburg, Pennsylvania. The mission of the NAVICP is to provide
            program and supply support for weapon systems that keep naval forces mission
            ready. The mission of the NAVICP is carried out by a single command
            organization operating in two locations. The NAVICP in Philadelphia manages
            aviation NSNs and the NAVICP in Mechanicsburg manages ship NSNs. This
            report addresses only NAVICP Philadelphia.

            As an inventory control point, the NAVICP is assigned the primary
            responsibility for materiel management for a group of items used by either a
            particular Service or by DoD as a whole. Materiel management responsibilities
            include cataloging,1 requirements computation, procurement direction,
            distribution management, and disposal direction. In FY 1999, NAVICP
            Philadelphia procured materiel valued at about $664.2 million and reported
            inventory valued at about $12.3 billion.


Objective

            Our overall objective was to evaluate the processes that the Military
            Departments and the Defense Logistics Agency used to identify and delete items
            in weapon system files that had obsolete NSNs. This report, the first in a
            series, addresses the Defense Hotline allegation concerning obsolete reparable
            NSNs managed by NAVICP Philadelphia. We also included a review of the
            management control program as it applied to the audit objective. The next
            report will address obsolete NSNs managed by the Defense Logistics Agency.
            During our audit, the Air Force Inspection Agency began a management review
            to assess the effectiveness of purging obsolete aircraft major end items and their

1
    The act of naming, classifying, describing and numbering each item repetitively used, purchased,
    stocked, or distributed so as to distinguish each item from every other item. Also included is the
    maintenance of information related to the item and the dissemination of that information to item users.

                                                       1
associated items from Air Force inventory. A final report on that review is
scheduled to be issued in September 2000. See Appendix A for a discussion of
our audit scope and methodology, our review of the management control
program, and prior coverage.




                                  2
           Obsolete National Stock Numbers
           The allegation was substantiated, but the cost avoidance was not.
           NAVICP weapon system files contained obsolete reparable NSNs, but
           the estimated annual cost of $150 million to maintain obsolete NSNs was
           greatly overstated. We identified 1,723 obsolete reparable NSNs (532 of
           the 1,723 NSNs had inventory valued at approximately $7.3 million) and
           180 obsolete weapon system applications associated with 89 obsolete
           aircraft. However, we did not perform a detailed review of the
           180 obsolete weapon system applications to identify all associated NSNs.
           Therefore, we believe the number of obsolete NSNs in the files is
           significantly greater. We also identified an additional 21,271 NSNs
           associated with both active and obsolete applications; the weapon system
           files contained 36,336 obsolete records associated with the 180 obsolete
           weapon system applications. Obsolete NSNs and associated records
           were in the weapon system files because management controls were not
           in place to ensure that obsolete NSNs and application codes were
           promptly identified and deleted from NAVICP files. As a result, we
           calculate DoD could avoid a minimum of $6.8 million of costs during the
           6-year Future Years Defense Program, FYs 2001 through 2006, by
           eliminating unnecessary cataloging and weapon system files and by
           reducing inventory. The full extent of monetary benefits will be
           quantifiable after management identifies and takes action to delete all
           obsolete NSNs, obsolete applications, and obsolete aircraft, as well as
           disposing of obsolete inventory.


Criteria and Procedures

    DoD Guidance. DoD Manual 4140.32-M, “Defense Inactive Item Program
    (DIIP),” August 1992, states that items no longer needed to support the mission
    of DoD organizations, other Federal agencies, or the International Logistics
    Program, needlessly consume machine time, personnel resources, and
    warehouse space with serious effect on the total supply system. DoD managers
    at every level are expected to place serious and continuing emphasis on the
    purging of unneeded items from the materiel inventory and active catalog files.

    NAVICP Procedures. “NAVICP DIIP Deskguide,” April 1998, provides
    detailed procedures and guidance for NAVICP implementation of DoD
    Manual 4140.32-M. DoD Manual 4140.32-M requires inventory control points
    to run the DIIP annually to eliminate all obsolete items from the system. An
    NSN is considered obsolete if there are no current or future requirements
    anticipated by any registered user of the NSN. Inventory control points identify

                                        3
and select potentially obsolete NSNs and refer those NSNs to registered users
for review. Users are required to review the NSNs and notify the inventory
control points whether or not the NSNs should be deleted.

NAVICP personnel advised us that they did not run the DIIP as specified in
DoD Manual 4140.32-M for NAVICP-managed items. Instead of running the
DIIP, the NAVICP used a series of other programs and methods to identify and
purge obsolete items. The programs and methods included an obsolete data
purge, program data expansion, file maintenance, and diagnostic reviews.

One of the methods used to identify obsolete weapon systems was a disposal
directive from the Naval Air Systems Command. The Naval Air Systems
Command is required to provide a disposal directive to the NAVICP when a
weapon system is determined to be obsolete. After receipt of a disposal
directive, the NAVICP is required to identify unique NSNs associated with the
weapon system and take action to delete the NSNs.

Application Codes. NAVICP Philadelphia assigns an application code to each
end item aircraft, engine, and support equipment it manages, as well as to all
reparable NSNs (assemblies and sub-assemblies) that support those items. The
code provides visibility of all NSNs, to include consumables, associated with a
particular end item and reparable NSN. An NSN can be assigned multiple
application codes if it is associated with multiple end items or reparable NSNs.

We obtained an extract, dated March 1999, from the NAVICP Philadelphia
weapon system files. The extract contained 767,583 records for
133,996 reparable NSNs and 7,938 applications associated with those NSNs. A
record was maintained for each NSN, and for each application code assigned to
the NSN. For example, a single NSN that has been assigned six application
codes has six records in the weapon system files. Table 1 shows the number of
NSNs in relation to how many applications the NSN was associated with.

                       Table 1. Applications and NSNs

          Applications and NSNs                   Number of NSNs
                       1                                39,603
                     2-5                                61,176
                    6-10                                18,558
                   11-25                                 8,792
                   26-49                                 4,241
                   50-99                                 1,350
            100 and over                                   276

                                 Total                133,996


                                    4
NSNs and Applications

    The audit substantiated the Defense Hotline allegation that the NAVICP weapon
    system files contained obsolete reparable NSNs. We identified 1,723 obsolete
    reparable NSNs and 180 obsolete applications associated with 89 aircraft. We
    also identified an additional 21,271 NSNs that were used on both active and
    obsolete applications; the weapon system files contained 36,336 obsolete records
    associated with the 180 obsolete applications.

    NSNs Provided in the Defense Hotline Allegation. The Defense Hotline
    allegation included a list of 200 NSNs that the complainant identified as
    obsolete. The complainant advised us that the list of the NSNs was provided to
    senior Navy management in March 1997.

    Of the 200 NSNs, 78 (39 percent) were obsolete. The 78 NSNs were associated
    with 72 weapon systems. NAVICP supply records showed that 23 of the
    78 NSNs had inventory, valued at about $200,000. One of the 78 obsolete
    NSNs was as follows.

           NSN 5831-00-068-6535, console assembly, was used on the
           KA-3B aircraft and had a unit price of $14,450. The item is
           coded in the Federal Logistics Information System as centrally
           managed, stocked, and issued. As of April 25, 2000, there were
           two units, valued at $28,900, in inventory. NAVICP supply
           records showed that there were no recorded demands for the
           NSN for at least 5 years.

    Obsolete Aircraft. NAVICP Philadelphia personnel provided us a June 1995
    planning memorandum prepared by the NAVICP Materiel Budget Department
    that showed the status of aircraft. There were 331 aircraft listed in the
    memorandum and the statuses provided included aircraft used by the Navy,
    aircraft used by another organization but supported by the NAVICP, aircraft to
    be retired within 2 years, and aircraft that were obsolete.

    We discussed the memorandum with personnel from the NAVICP, Naval Air
    Systems Command weapon system program and international logistics offices,
    and the Office of the Chief of Naval Operations to verify the accuracy of the
    memorandum and to determine if any additional aircraft had become obsolete
    since the June 1995 memorandum. Those discussions identified a total of
    89 aircraft as obsolete that were in contained in the weapon system files. There
    were 180 obsolete applications associated with the obsolete aircraft.



                                        5
A comparison of the 180 obsolete applications with the weapon system file
extract identified 1,645 obsolete NSNs associated with the obsolete applications.
NAVICP supply records showed that 509 of the 1,645 NSNs had inventory,
valued at $7.1 million. One of the 180 obsolete applications was as follows.

       A weapon system application for the C-118B aircraft, application
       code 1XC118B, was obsolete. The weapon system file extract
       showed that there were 139 obsolete NSNs that were unique to
       that application code. NAVICP supply records showed that 60 of
       the 139 NSNs had inventory, valued at approximately $282,300.

NSNs Associated With Both Active and Obsolete Weapon System
Applications. Of the 767,583 records in the weapon system file extract, there
were 93,914 NSNs and 726,909 records associated with both obsolete and active
applications. A comparison of 180 obsolete application codes with the
726,909 records identified 21,271 NSNs associated with the obsolete
applications and 36,336 records that contained obsolete application codes. No
standards or data were available to estimate the costs to maintain the obsolete
records; therefore, we were unable to quantify the costs related to cataloging,
computer time, and personnel resources required to maintain the obsolete
records.

Disposal Directives. NAVICP personnel advised us that disposal directives
provide the authority to delete obsolete NSNs, obsolete applications, and
obsolete aircraft from its weapon system files. The Naval Air Systems
Command is responsible for issuing disposal directives to the NAVICP. The
deletion of obsolete aircraft from the NAVICP files starts with the receipt of a
disposal directive. No disposal directives were available for our review at
NAVICP Philadelphia. We were unable to determine whether disposal
directives were issued by the Naval Air Systems Command and not used by the
NAVICP or whether the directives were not issued.

Costs of Maintaining Obsolete NSNs. The Defense Hotline allegation that
approximately $150 million of costs ($7,500 times 20,000 NSNs) could be
avoided each year if obsolete NSNs were removed from the NAVICP files was
not substantiated. The Defense Hotline complainant provided no support for the
estimate of maintenance costs and we could not verify the estimate.

“Naval Air Systems Command Level of Repair Analysis Default Data Guide,”
May 1999, estimates costs related to repair analyses. The Guide shows a
recurring annual bin cost (to store inventory) of $500 per NSN and a recurring
annual cataloging cost of $500 per NSN. Those cost estimates were provided
by the NAVICP in 1999. Table 2 shows annual costs based the estimates.


                                    6
                                               Table 2. Annual Costs

                                        Number of NSNs           Cost per NSN           Total

                  Cataloging                   1,723                  $500           $ 861,500
                  Bin                            532*                  500             266,000

                      Total                                                          $1,127,500
                  *
                      Number of the 1,723 obsolete NSNs that had inventory.


           We calculated costs of about $6.8 million could be avoided during the 6-year
           Future Years Defense Program, FYs 2001 through 2006, by removing the
           obsolete NSNs identified by this audit from the NAVICP files.

           We did not do a detailed review of the 180 obsolete weapon system applications
           to identify all associated NSNs.2 We believe the number of obsolete NSNs in
           the files is significantly greater and that the costs avoided will be significantly
           higher after the NAVICP takes action to identify and delete all obsolete NSNs
           associated with the obsolete applications. For example, one of the aircraft
           identified as obsolete was the EA-3B, but we did not identify any obsolete NSNs
           associated with that aircraft. However, NAVICP personnel identified
           6,831 NSNs (5,588 consumable NSNs and 1,243 reparable NSNs) associated
           with the EA-3B aircraft. The 1,243 reparable NSNs identified by NAVICP
           personnel were outside our criteria of review. In addition, the weapon system
           file extract did not include NSNs directly tied to the 1,243 reparable NSNs. An
           analysis of just 12 of the 1,243 reparable NSNs identified about 340 NSNs tied
           directly to the 12 reparable NSNs. An analysis of just 1 of the 340 NSNs
           identified 55 NSNs tied directly to it.


NAVICP Philadelphia Actions

           We commend NAVICP Philadelphia personnel for taking positive management
           actions during the audit. NAVICP Philadelphia personnel assisted us in
           identifying obsolete NSNs, obsolete applications, and obsolete aircraft.
           Additionally, they coordinated the results of our audit with the Office of the
           Chief of Naval Operations to obtain approval to delete the obsolete data from
           NAVICP weapon system files.

2
    We evaluated only reparable NSNs associated with one, two, or three of the 180 applications associated
    with the 89 aircraft. We did not evaluate any consumable NSNs. In addition, the file extract contained
    only NSNs directly associated with an application.

                                                        7
Management Comments on the Finding Discussion and Audit
 Response

    Navy Comments. The Navy provided updated information on the value of
    materiel procured and the inventory reported by NAVICP Philadelphia. The
    Navy also provided clarification on the responsibilities of the Naval Air Systems
    Command and NAVICP Philadelphia on issuing and following disposal
    directives on obsolete aircraft.

    Audit Response. We revised the report to include the updated and clarified
    information from the Navy.


Recommendations, Management Comments, and Audit
  Response

    We recommend that the Commander, Naval Inventory Control Point:

           1. Ensure that Naval Inventory Control Point Philadelphia establish
    controls to promptly identify obsolete NSNs, obsolete applications, and
    obsolete aircraft; delete the appropriate cataloging and weapon system files;
    and dispose of all unneeded inventory. The controls should ensure that the
    programs and methods used instead of the Defense Inactive Item Program
    are working as intended.

    Navy Comments. The Navy concurred and stated that NAVICP Philadelphia
    procedures will be updated by August 31, 2000, to ensure that the NAVICP
    requests identification of obsolete aircraft from the Naval Air Systems
    Command on an annual basis and that personnel follow proper data purge
    procedures.

            2. Take action to remove the obsolete applications and national
    stock numbers identified by the audit from the weapon system files. To
    quantify the cost avoidance realized by deleting the national stock numbers,
    Naval Inventory Control Point Philadelphia personnel should maintain
    statistics to show how many national stock numbers are deleted and the
    dollar value of inventory sent to disposal.

    Navy Comments. The Navy concurred and stated that all applicable NSNs will
    be purged by August 31, 2000, and statistics will be maintained as
    recommended.


                                        8
Audit Response. Navy comments were responsive to the recommendations.
However, the Navy did not comment on the $6.8 million in potential monetary
benefits from eliminating unnecessary cataloging and weapon system files and
from reducing inventory. Additionally, the Navy did not quantify the monetary
benefits associated with the actions completed August 31, 2000, to delete all
obsolete NSNs, obsolete applications, and obsolete aircraft and to dispose of
obsolete inventory. Therefore, we request that the Navy provide additional
comments on the final report.




                                  9
Appendix A. Audit Process

Scope

    Worked Performed. We reviewed the process that the NAVICP used to
    identify and remove obsolete NSNs from its weapon system files. As of
    March 1999, NAVICP weapon system files contained 133,996 reparable NSNs
    that were associated with 7,938 applications. We reviewed NAVICP standard
    operating procedures and catalog, procurement, and supply records. The
    documents we reviewed were dated from August 1992 through April 2000. We
    interviewed personnel at NAVICP Philadelphia, Naval Air Systems Command,
    and the Office of the Chief of Naval Operations to assist in determining whether
    NSNs were obsolete.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goal, and performance measure:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an
           uncertain future by pursuing a focused modernization effort that
           maintains U.S. qualitative superiority in key warfighting
           capabilities. Transform the force by exploiting the Revolution in
           Military Affairs, and reengineer the Department to achieve a
           21st century infrastructure. (00-DoD-2) FY 2000 Subordinate
           Performance Goal 2.3: Streamline the DoD infrastructure by
           redesigning the Department’s support structure and pursuing
           business practice reforms. (00-DoD-2.3) FY 2000 Performance
           Measure 2.3.6: Disposal of excess National Defense Stockpile
           inventory and reduction of supply inventory. (00-DoD-2.3.6)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to the achievement of the following Logistics Functional Area
    objective and goal:

           Objective: Streamline logistics infrastructure. Goal: Implement
           most successful business practices (resulting in reductions of
           minimally required inventory levels). (LOG-3.1)



                                       10
    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.


Methodology

    Review of NSNs and Application Data. We reviewed 200 NSNs that the
    Defense Hotline complainant alleged were obsolete. We also reviewed a June
    1995 NAVICP Philadelphia planning memorandum to identify obsolete aircraft.
    We evaluated the March 1999 weapon system file extract to determine whether
    obsolete aircraft had been removed from NAVICP files. If an aircraft had not
    been removed, we identified weapon system applications associated with the
    aircraft and NSNs associated with the applications to determine the number of
    NSNs that were potentially obsolete.

    Use of Computer-Processed Data. We relied on computer-processed data
    provided by the NAVICP to determine NSNs associated with the weapon system
    applications that we identified as obsolete. We did not perform a formal
    reliability assessment of the computer-processed data. However, to the extent
    that we reviewed the data, we did not find any errors that would preclude use of
    the data to meet the audit objective or that would change the conclusions in this
    report.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from September 1999 through April 2000 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program

    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.




                                       11
    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over identifying and removing obsolete NSNs
    and applications from the NAVICP weapon system files. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses in removing obsolete NSNs and applications from NAVICP
    weapon system files as defined by DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996. Management controls
    were not adequate to ensure that obsolete NSNs and applications were removed
    from the NAVICP Philadelphia weapon system files. Recommendations in this
    report, if implemented, will correct the material weaknesses and could result in
    potential monetary benefits of $6.8 million. A copy of the report will be
    provided to the senior official responsible for management controls in the Navy.

    Adequacy of Management’s Self-Evaluation. The NAVICP did not identify
    either obsolete NSNs or obsolete applications as an assessable unit and,
    therefore, did not identify or report the material management control
    weaknesses identified by the audit. Since the audit started, the NAVICP
    established an assessable unit to identify and remove obsolete weapon systems
    from its database.


Prior Coverage
    No prior coverage had been conducted on the subject during the last 5 years.




                                       12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Air Systems Command
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
  Commander, Defense Supply Center Richmond




                                         13
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
     Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          14
Department of the Navy Comments




                  15
Final Report
 Reference




Revised.




Revised.




               16
17
18
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report. Personnel of the
   Office of the Inspector General, DoD, who contributed to the report are listed
   below.

     Shelton R. Young
     Raymond D. Kidd
     Tilghman A. Schraden
     Terrance P. Wing
     John W. Henry
     James J. McDermott
     David R. Hasz
     Paula A. Richardson
